E-Mail Address: 775 H Street, N.E.

Est oa! briefs@wilsonepes.com Washington, D.C. 20002
WSO TG Web Site: Tel (202) 789-0096
eases www.wilsonepes.com Fax (202) 842-4896
No. 20-____
SIMON CAMPBELL AND

PENNSYLVANIANS FOR UNION REFORM,

Petitioners,
v.

PENNSYLVANIA SCHOOL BOARDS ASSOCIATION;
MICHAEL FACCINETTO, SOLELY IN HIS INDIVIDUAL
CAPACITY; DAVID HUTCHINSON, SOLELY IN HIS
INDIVIDUAL CAPACITY; OTTO W. VOIT, III,
SOLELY IN HIS INDIVIDUAL CAPACITY;

KATHY SWOPE, SOLELY IN HER INDIVIDUAL CAPACITY;
LAWRENCE FEINBERG, SOLELY IN HIS INDIVIDUAL
CAPACITY; ERIC WOLFGANG, SOLELY IN HIS
INDIVIDUAL CAPACITY; DANIEL O’KEEFE, SOLELY IN
HIS INDIVIDUAL CAPACITY; DARRYL SCHAEFER,
SOLELY IN HIS INDIVIDUAL CAPACITY; THOMAS KEREK,
SOLELY IN HIS INDIVIDUAL CAPACITY; AND
LYNN FOLTZ, SOLELY IN HER INDIVIDUAL CAPACITY,

Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on March 15, 2021, the following counsel have expressly waived service
of paper copies by mail and have requested electronic service and that true and correct electronic
copies of the PETITION FOR A WRIT OF CERTIORARI were served on the following counsel at
the e-mail addresses indicated:

MICHAEL LEVIN

DAVID W. BROWN

LEVIN LEGAL GROUP, P.C.

1301 Masons Mill Business Park
1800 Byberry Road

Huntington Valley, PA 19006
(215) 938-6378
mlevin@levinlegalgroup.com
dbrown@levinlegalgroup.com

 

ROBYN DoRSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

fogié me this 15th day of March 2021. } yf

 

Sworn to and subgeFibed Be

NOs 8 Gay ay
<i ee

OS
io

       

QO

   

COLIN CASEY HOGAN
NOTARY PUBLIC

District of Columbia
My commission expires April 14, 2022.

   
